No. 19-566

In the Supreme Court of the United States
DEVAN PIERSON, PETITIONER
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

MEMORANDUM FOR THE UNITED STATES

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

In the Supreme Court of the United States
No. 19-566
DEVAN PIERSON, PETITIONER
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

MEMORANDUM FOR THE UNITED STATES

Petitioner principally contends (Pet. 6-18) that this
Court should grant a writ of certiorari to address
whether Section 403 of the First Step Act of 2018,
Pub. L. No. 115-391, 132 Stat. 5221, which applies to
pre-enactment offenses only “if a sentence for the offense has not been imposed as of [the] date of [the Act’s]
enactment,” § 403(b), 132 Stat. 5222, applies to defendants whose direct appeals were pending, but who had
already been sentenced, at the date of the Act’s enactment.
That question does not warrant this Court’s review.
The courts of appeals that have addressed the issue
have uniformly and correctly recognized that Sections
401 and 403 of the First Step Act, which have identicallyworded applicability provisions, do not apply to defendants who were sentenced prior to enactment of the Act.
See Young v. United States, 943 F.3d 460, 462-463 (D.C.
Cir. 2019); United States v. Aviles, 938 F.3d 503, 510
(1)

2
(3d Cir. 2019); United States v. Wiseman, 932 F.3d 411,
417 (6th Cir. 2019), petition for cert. pending, No. 19-7341
(filed Jan. 15, 2020); United States v. Pierson, 925 F.3d
913, 928 (7th Cir. 2019) (decision below); cf. United
States v. Hunt, No. 19-1075, 2019 WL 5700734, at *3
(10th Cir. Nov. 5, 2019); United States v. Melvin,
777 Fed. Appx. 652, 653 (4th Cir. 2019) (per curiam);
United States v. Means, 787 Fed. Appx. 999, 1000
(11th Cir. 2019) (per curiam). As the United States has
explained in several recent briefs in opposition, that
uniform determination accords with the plain language
of the First Step Act, the “ordinary practice” in federal
sentencing, Dorsey v. United States, 567 U.S. 260, 280
(2012), and the federal saving statute, which specifies
that the repeal of any statute will not operate “to release or extinguish any penalty, forfeiture, or liability
incurred under such statute” unless the repealing act so
provides, 1 U.S.C. 109. See U.S. Br. at 10-18, McDaniel
v. United States, No. 19-6078 (Jan. 24, 2020); U.S. Br. at
5-8, Nelson v. United States, No. 19-6264 (Dec. 27, 2019).1
This Court has recently denied petitions for writs of
certiorari in multiple cases presenting this issue under
Section 401 or Section 403 of the First Step Act. See
Sanchez v. United States, No. 19-6279 (Nov. 25, 2019);
Coleman v. United States, No. 19-5445 (Nov. 25, 2019);
Smith v. United States, No. 18-9431 (Nov. 4, 2019);
Pizarro v. United States, 140 S. Ct. 211 (2019) (No.
18-9789). The Court’s review of the question is not warranted in this case, either. 2
1
We have served petitioner with copies of the government’s briefs
in opposition in McDaniel and Nelson.
2
In a handful of cases, the Court has granted a petition for a writ
of certiorari, vacated the judgment below, and remanded (GVR’d)
to allow the court of appeals to address First Step Act questions in

3
Petitioner separately contends (Pet. 18-20) that his
conviction for possessing a firearm as a felon, in violation
of 18 U.S.C. 922(g)(1) and 924(a)(2), is infirm because
the courts below did not recognize that knowledge of
status is an element of that offense. In Rehaif v. United
States, 139 S. Ct. 2191 (2019), this Court held that the
mens rea of knowledge under Sections 922(g) and
924(a)(2) applies “both to the defendant’s conduct and
to the defendant’s status.” Id. at 2194. Accordingly, the
appropriate course is to grant the petition for a writ of
certiorari, vacate the decision below, and remand the
case for further consideration in light of Rehaif. 3
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General

JANUARY 2020

the first instance. See Jefferson v. United States, No. 18-9325
(Jan. 13, 2020); Richardson v. United States, 139 S. Ct. 2713 (2019)
(No. 18-7036); Wheeler v. United States, 139 S. Ct. 2664 (2019) (No.
18-7187). None of those GVRs arose in a posture where—as in this
case—the court of appeals had already rejected the petitioner’s
First Step Act argument in a precedential opinion.
3
The government waives any further response to the petition for
a writ of certiorari unless this Court requests otherwise.

